                                                 NATIONAL SCIENCE FOUNDATION
                                                  OFFICE OF INSPECTOR GENERAL
                                                    OFFICE OF INVESTIGATIONS

                                            CLOSEOUT MEMORANDUM
                                                                                                        1
Case Number: A04030014                                                                      Page 1 of 1

                                                                                                        /I
         We reviewed 71 grants selected by a random sampling procedure from NSF Fiscal Year 2001
         awards for conferences, workshops and symposia. As part of the review, we requested grant I'
         records from each grantee. Where the records indicated possible issues, we opened inquiries to
         resolve the issues.
                                                                                                        II

         In a grant that supported participation in a Mathematics conference1,we identified potential
         program income fiom registration fees mentioned in the grant proposal but not included in
         records supplied by the grantee. We opened an inquiry to resolve this issue.

         The grantee eventually provided documentation on $3,500 in registration fees, which had been
         deposited directly into a departmental account and used for conference expenses. We determined
         that while certain expenses were unallowable (including alcohol), the unallowable expenses
         could be allocated to a non-Federal co-sponsor of the conference. The remaining costs appeared
         to be reasonable and allocable to the NSF grant. The grantee agreed to educate the department
         and other PIS about University and Federal policies regarding program income. Accordingly, t p s
         case is closed.




                                                                                                             II
NSF OIG Form 2 (1 1/02)
